TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Mismatched Names and Identification
                  Numbers on Information Documents Could
                     Undermine Strategies for Reducing
                                the Tax Gap



                                         August 31, 2007

                              Reference Number: 2007-30-159




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(e) = Law Enforcement Procedure(s)
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 31, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Mismatched Names and Identification Numbers
                             on Information Documents Could Undermine Strategies for Reducing
                             the Tax Gap (Audit # 200630IE002)

 This report presents the results of our review to evaluate the progress of efforts to minimize the
 volume of mismatched names and identification numbers reported on the Miscellaneous Income
 (Form 1099-MISC) and the Wage and Tax Statement (Form W-2) (hereafter referred to as
 miscellaneous income and wage statements, respectively).

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) annually receives millions of miscellaneous income and
 wage statements with mismatched names and identification numbers that it is unable to use in
 determining if the recipients filed tax returns and/or reported the income reflected on the
 statements. These mismatches consequently create opportunities for the income recipients to
 avoid the scrutiny of the IRS through underreporting income and not filing tax returns. Those
 recipients that take advantage of such opportunities can create unfair burdens on honest
 taxpayers and diminish the public’s respect for the tax system.

 Synopsis
 Accurate information reporting is central to the success of the nation’s voluntary tax system
 because it assists taxpayers in filing correct tax returns, maintains high levels of compliance, and
 allows the IRS to more economically and efficiently detect and pursue noncompliant taxpayers
 who underreport income or do not file tax returns. Because of the benefits involved, we and
 others support the enhancement and expansion of information reporting as a key strategy to
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap


reduce the underreporting of taxes that in part gives rise to the estimated $345 billion tax gap
(the difference between what is paid in taxes and what should be paid according to the tax laws).
However, mismatched names and identification numbers on information documents could
undermine the effectiveness of the strategy because the success of information reporting is
largely dependent upon the accuracy of the names and identification numbers reported on the
documents.
For Tax Years (TY) 2001 through 2004, the IRS received about 48 million miscellaneous
income and wage statements (reporting $931 billion of income) that it was unable to use in
determining if the recipients filed tax returns and reported the income. The majority of the
income involved nonemployee (e.g., independent contractor) compensation reported on unusable
miscellaneous income statements. In TY 2004 alone, the IRS received about 3.8 million
miscellaneous income statements (reporting approximately $150 billion in earnings) that could
not be computer matched to a filed tax return because of missing or erroneous identification
numbers. Compared to when we first reported the problem in 2001,1 this is a 63 percent increase
in the number of unusable documents reporting nonemployee compensation, and the earnings
reported on the documents have more than doubled.
The President’s Fiscal Year 2008 budget recommends legislation that requires businesses to
verify the accuracy of identification numbers for the independent contractors they hire and to
withhold taxes from those whose identification numbers do not match IRS records. These
proposals reiterate recommendations that we, the IRS, and the Government Accountability
Office have made to address the root causes that largely account for the low compliance levels
among independent contractors and the number of miscellaneous income statements submitted
with mismatched names and identification numbers. A similar legislative solution is needed to
address the problem with mismatched names and identification numbers on wage statements.
Because the Fiscal Year 2008 budget involves just legislative proposals, we believe the IRS
needs to thoroughly consider other options, including additional research to resolve more
incorrect identification numbers. We used IRS automated data systems to manually research
statistically valid samples of 374 miscellaneous income statements and 246 wage statements
from TY 2004 with mismatched names and identification numbers reporting more than $60,000
in earnings.2 We successfully validated 309 (50 percent) of the 620 statements and matched
them to taxpayer accounts in IRS records.
When projected to the populations, our sample results indicate 6,042 individuals had not filed
TY 2004 returns, although the statements reported they had earned, on average, about $104,327.
Some individuals had not filed tax returns for several years, and the mismatched documents

1
  Significant Tax Revenue May Be Lost Due to Inaccurate Reporting of Taxpayer Identification Numbers for
Independent Contractors (Reference Number 2001-30-132, dated August 2001).
2
  We selected statements reporting more than $60,000 in earnings because it would enable us to focus our efforts on
those with the highest amount of unreported income.
                                                                                                                  2
                Mismatched Names and Identification Numbers on Information
                        Documents Could Undermine Strategies for
                                 Reducing the Tax Gap


showed their earnings exceeded $200,000 in 1 or more of the years. Altogether, we estimate
there could be $630 million in earnings not reported by 6,042 individuals who may not have filed
their tax returns.

Recommendations
We recommended the Director, Examination, Small Business/Self-Employed Division, forward
the observations in this report to the Department of the Treasury to use in assessing the need for
tax law changes that would allow the IRS to verify employee identification numbers for
employers and require employers to (1) use the IRS identification number matching system to
verify the accuracy of identification numbers for the employees they hire and (2) withhold taxes
at the maximum rates on those whose identification numbers do not match IRS records. We also
recommended the Director use IRS automated data systems to research, resolve, and investigate
high-dollar miscellaneous income and wage statements with mismatched names and
identification numbers.

Response
IRS management agreed with our first recommendation; however, they do not plan to take any
action on the second recommendation. In deciding not to take action, IRS management noted
that, among other things, the additional cost of manually perfecting mismatched names and
identification numbers on miscellaneous income and wage statements may exceed the monetary
benefits. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
The IRS decision not to act on our second recommendation based on a cost/benefit concern is
puzzling because we estimate the benefit of $233.36 million in additional revenue exceeds by a
large margin the costs the IRS would incur. In Fiscal Year 2007, for example, the IRS paid its
most experienced examiners working in the highest cost of living area in the country about
$62 an hour in salary and benefits. IRS records show the examiners produced about $354 for
each hour they spent examining a tax return (a net return of about $292 an hour). In comparison,
we estimate that, if instead of examining tax returns the examiners had perfected and
investigated the 103,471 mismatched documents reflected in Figure 3 of the report, they would
have generated an average of about $2,255 per hour (a net return of about $2,193 an hour).
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202)-622-5894.

                                                                                                 3
                      Mismatched Names and Identification Numbers on Information
                              Documents Could Undermine Strategies for
                                       Reducing the Tax Gap




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Information Reporting Is Central to the Success of Our Nation’s
          Voluntary Tax System and Reducing the Tax Gap ......................................Page 3
          Statutory Constraints Are Hampering the Progress That
          Could Be Made to Increase the Accuracy of Information
          Reported on Miscellaneous Income and Wage Statements ..........................Page 6
                    Recommendations 1 and 2: ....................................................... Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ................................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 19
      Mismatched Names and Identification Numbers on Information
              Documents Could Undermine Strategies for
                       Reducing the Tax Gap




                     Abbreviations

GAO            Government Accountability Office
IRS            Internal Revenue Service
SSN            Social Security Number
TY             Tax Year
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap




                                           Background

Shortly after the end of each calendar year, billions of information documents are prepared and
used to report a variety of transactions and payments to the Internal Revenue Service (IRS).
Two of the more commonly used information documents are the Miscellaneous Income
(Form 1099-MISC) and the Wage and Tax Statement (Form W-2) (hereafter referred to as
miscellaneous income and wage statements, respectively).
In general, the tax laws1 require those engaged in a trade or business to annually file accurate
miscellaneous income statements to report payments for services of $600 or more made to
individuals who are not their employees (e.g. independent contractors). Similarly, employers are
required to annually prepare and file accurate wage statements to report the amount of earnings
paid to, and the taxes withheld from, their employees.
Both miscellaneous income and wage
statements are used by the IRS in computer        Miscellaneous income and wage statements
matching routines to determine whether the         are used by the IRS to determine whether
respective independent contractors and              independent contractors and employees
                                                     filed income tax returns and accurately
employees filed their income tax returns and                  reported their earnings.
accurately reported the earnings. However,
before the IRS can make this determination,
it must validate the accuracy of the names and identification numbers reported on the documents
to its records and those of the Social Security Administration. For most individuals, the
identification number is the Social Security Number (SSN) that was issued by the Social Security
Administration. The IRS additionally issues as identification numbers nine-digit Employer
Identification Numbers and Individual Taxpayer Identification Numbers. Employer
Identification Numbers are generally assigned to businesses, such as sole proprietors2 and
corporations; Individual Taxpayer Identification Numbers are assigned to individuals who do not
have, and are not eligible to obtain, an SSN.
To encourage the filing of miscellaneous income and wage statements with accurate
identification numbers, Congress has placed in the tax laws numerous provisions that give the
IRS the authority to assess penalties against those who file incomplete or inaccurate information
documents. The IRS is also authorized to require businesses that hire independent contractors to


1
  26 U.S.C. Section (§) 6041(a) (2007).
2
  Sole proprietors are self-employed individuals who generally file a U.S. Individual Income Tax Return
(Form 1040) Profit or Loss From Business (Schedule C) with their Forms 1040 to report the income and expenses
from their businesses. They are involved in a variety of businesses that provide goods and services, such as
retailers, manufacturers, professionals, and home-repair contractors.
                                                                                                        Page 1
                      Mismatched Names and Identification Numbers on Information
                              Documents Could Undermine Strategies for
                                       Reducing the Tax Gap



begin backup withholding of taxes,3 at the rate of 28 percent of the earnings, from any
independent contractor that fails to provide them with an identification number or with one that
is accurate.
This review was performed in the IRS Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period July 2006 through February 2007. Due to time and
resource constraints, we did not audit IRS databases to validate the accuracy and reliability of
their information. Also, we did not evaluate the adequacy of IRS internal controls over
miscellaneous income and wage statements because that was outside the scope of the review.
Otherwise, the audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
    Backup withholding of taxes is an IRS procedure designed to ensure some taxes are paid on earnings.
                                                                                                          Page 2
                 Mismatched Names and Identification Numbers on Information
                         Documents Could Undermine Strategies for
                                  Reducing the Tax Gap




                                 Results of Review

Information Reporting Is Central to the Success of Our Nation’s
Voluntary Tax System and Reducing the Tax Gap
The role and benefits of third-party information reporting are central to the success of our
nation’s tax system because they help assure taxpayers accurately report their income and certain
deductions. Under the tax laws, information reporting generally is required to take place shortly
after the end of the calendar year so taxpayers can receive and use the information in preparing
their annual tax returns. This process reduces the likelihood that taxpayers may inadvertently
neglect to include items such as wages they earned from a part-time job held for a short period of
time or the interest income from a small savings account. Moreover, experience indicates that
information reporting maintains high levels of compliance. For example, the IRS and others
have reported that, over time, individuals have voluntarily reported 99 percent of the income
reported on wage statements. In contrast, individuals who did not receive such information
documents voluntarily reported only about 83 percent of their income.
Besides assisting taxpayers and maintaining high
levels of compliance, information reporting is a key
                                                               Besides maintaining high levels of
component in IRS compliance programs that are                   compliance over time, computer
designed to detect and pursue noncompliant taxpayers           matching of information reporting
who underreport income and/or do not file tax returns.           is a key component of the IRS’
In the Information Returns Program, IRS computers              efforts to detect and pursue those
                                                               who underreport income or do not
match the income reflected on the information
                                                                          file tax returns.
documents submitted by third parties to the income on
the filed tax returns of those who receive the
documents. If the match shows a discrepancy between income amounts, a potential
underreporter case may be developed so the IRS can determine whether further investigation is
warranted to resolve potential unreported income. For a match that shows income but no
corresponding tax return, a potential nonfiler case is initiated.
As a result of the matching, the IRS annually contacts about 3 million taxpayers regarding
potential discrepancies in their tax information; another 2 million taxpayers are contacted to
resolve potential nonfiler situations. According to 2005 IRS statistics, the contacts resulted in
tax, interest, and penalty assessments of about $4 billion against taxpayers who had filed their
tax returns but underreported their income. The IRS additionally reported making another
$8 billion in assessments against taxpayers who had not filed their tax returns.



                                                                                             Page 3
                       Mismatched Names and Identification Numbers on Information
                               Documents Could Undermine Strategies for
                                        Reducing the Tax Gap



Because of the success the IRS achieves through computer matching, many4 are calling for the
enhancement and expansion of information reporting, particularly for independent contractors, to
reduce the underreporting of taxes that in part gives rise to the estimated $345 billion tax gap
(the difference between what is paid in taxes and what should be paid according to the tax laws).

          Figure 1: The IRS’ Tax Year 2001                          Using compliance data it collected from
       Underreporting Gross Tax Gap Estimates                       Tax Year (TY) 2001, the IRS estimates
                                                                    that underreporting accounts for about
                                                Employment
                                                                    83 percent of the tax gap ($285 million
                                                 Taxes, $54         of the $345 billion). As shown in
                                                      Corporate     Figure 1, the IRS attributes most
                                                    Income Taxes,
                                                         $30
                                                                    (69 percent) of the underreporting to
                                                                    individuals (approximately $197 billion
                                                                    of $285 billion). Within the individual
                                                                    estimate, the IRS believes most (about
                                                                    $109 billion) of the underreporting
          Individual
                                                                    involves business income from
       Income Taxes,
                                            Other Taxes,            self-employed individuals, including
             $197
                                                 $4
                                                                    independent contractors.
    Source: Our analysis of data from the Department of the
    Treasury’s strategy for reducing the tax gap. Amounts   Because independent contractors are
    shown are in billions.                                  generally assessed income and
                                                            self-employment taxes on the same
earnings, those who underreport their income also underreport the amount of self-employment
taxes they owe. As a result, a significant portion of the tax gap associated with both
underreported income and underreported self-employment taxes involves independent
contractors.

The success of using information documents to improve compliance and reduce
the tax gap depends on the IRS receiving accurate names and identification
numbers on miscellaneous income and wage income statements
The ability of the IRS to successfully use computer matching in determining if income is
reported and tax returns are filed is largely dependent upon the accuracy of the names and
identification numbers reported on submitted miscellaneous income and wage statements. Given
the central role this has in tax administration, it is not surprising that numerous studies have been
conducted on how to better ensure accurate names and identification numbers are submitted on
the statements.



4
 Those calling for strengthening information reporting for independent contractors include us, the Government
Accountability Office, the IRS, and the Department of the Treasury.
                                                                                                          Page 4
                 Mismatched Names and Identification Numbers on Information
                         Documents Could Undermine Strategies for
                                  Reducing the Tax Gap



Several studies, including those that we, the IRS, and the Government Accountability Office
(GAO) have completed, suggested legislative or regulatory changes are needed that would hold
businesses more accountable for obtaining accurate identification numbers from the employees
and independent contractors they hire. Although penalty provisions in the tax laws are intended
to address this issue, they have been used sparingly and have been largely ineffective.
In 2001, for example, we reported on the growing problem with miscellaneous income
statements reporting the earnings of independent contractors with erroneous identification
numbers.5 We found, among other things, that for TYs 1996 and 1997 penalties were assessed
against only 3,356 (0.2 percent) of the approximately 1,643,000 businesses who had submitted
miscellaneous income statements with missing or inaccurate identification numbers. Our
recommendations were predicated on the implementation of an identification number verification
system and included (1) requiring businesses to use the system in verifying the accuracy of
identification numbers at the beginning of their relationships with workers and (2) imposing
backup withholding taxes on those workers who provide inaccurate identification numbers.
The IRS reported in April 2003 that, although 50 employers included in its study filed large
numbers of wage statements with inaccurate SSNs, all met the reasonable cause standards in the
tax laws for waiving penalties.6 The report recommended numerous legislative and regulatory
changes that could be made to increase the accuracy of identification numbers on wage
statements; several of them would require employers to take greater responsibility for ensuring
the accuracy of the identification numbers. Among the recommendations cited in the report is a
requirement for employers to verify the accuracy of identification numbers for all new
employees and to withhold taxes at the highest rate for those who provide an inaccurate
identification number.
As recently as 2004, the GAO highlighted the need for regulatory changes when it reported that
employers need to be more accountable for increasing the accuracy of identification numbers on
wage statements.7 According to the GAO:
      Because little or no likelihood exists for penalties to be levied, the potential of the
      statutory penalty tool to encourage greater accuracy of wage statements is
      compromised. Further, because employers have no responsibility to verify SSNs,
      opportunities to detect and correct SSN inaccuracies before [the] SSA [Social
      Security Administration] and IRS need to react to them and possibly consider
      penalizing employers are lost. Accordingly, thoroughly exploring options to change
      the reasonable cause standard, including possibly requiring that employers take steps


5
  Significant Tax Revenue May Be Lost Due to Inaccurate Reporting of Taxpayer Identification Numbers for
Independent Contractors (Reference Number 2001-30-132, dated August 2001).
6
  The IRS’ Large and Mid-Size Division: The Form W-2 SSN/Name Mismatch Project, dated April 2003.
7
  TAX ADMINISTRATION: IRS Needs to Consider Options for Revising Regulations to Increase the Accuracy of
Social Security Numbers on Wage Statements (GAO-04-712, dated August 2004).
                                                                                                  Page 5
                Mismatched Names and Identification Numbers on Information
                        Documents Could Undermine Strategies for
                                 Reducing the Tax Gap



     to verify the accuracy of SSNs provided by employees, must be a critical part of [the]
     IRS’s consideration of how to make their penalty program more effective.
Despite the focus on information reporting and the central role many are expecting it to have in
closing the tax gap, reducing the number of mismatched names and identification numbers on
miscellaneous income and wage statements remains a significant challenge.

Statutory Constraints Are Hampering the Progress That Could Be
Made to Increase the Accuracy of Information Reported on
Miscellaneous Income and Wage Statements
Mismatched names and identification numbers on information documents can occur for a variety
of reasons. For example, a worker could inadvertently provide an employer with a wrong
identification number, or an employer could make an error when recording an otherwise valid
identification number on a document. We believe it is also reasonable to assume that some
workers who may want to hide their identities and underreport their income or not file tax returns
would provide incorrect identification numbers to those that hire them.
For TYs 2001 through 2004, the IRS received about 48 million miscellaneous income and wage
statements (reporting $913 billion of income) that it was unable to use in determining if the
recipients filed tax returns and/or reported the income. The majority of the income involved
nonemployee (e.g., independent contractor) compensation reported on unusable miscellaneous
income statements. In TY 2004 alone, the IRS received about 3.8 million miscellaneous income
statements (reporting approximately $150 billion in earnings) that could not be computer
matched to a filed tax return because of missing or erroneous identification numbers. These
mismatches consequently create opportunities for the income recipients to avoid the scrutiny of
the IRS through underreporting income and not filing tax returns. We believe those recipients
that take advantage of such opportunities create unfair burdens on honest taxpayers and diminish
the public’s respect for the tax system. Moreover, compared to when we first reported the
problem in 2001, there has been a 63 percent increase in the number of unusable documents
reporting nonemployee compensation, and the earnings reported on the documents have more
than doubled.
The increase in the number of unusable miscellaneous income statements and the relatively flat
trend in the number of unusable wage statements are, according to the IRS, reflective of the
overall trends in the universe of miscellaneous income and wage statements filed over the past
few decades. One of the primary factors driving the trends is the outsourcing of work to
independent contractors. Businesses started noticeably outsourcing work to independent
contractors beginning in the 1980s and are continuing this practice today as a way to save on
employee-related expenses such as payroll taxes, health care costs, and retirement plans. From a
business perspective, hiring independent contractors instead of increasing payroll and other costs
by adding employees may make sense as a cost-saving measure. However, it raises concerns

                                                                                           Page 6
                 Mismatched Names and Identification Numbers on Information
                         Documents Could Undermine Strategies for
                                  Reducing the Tax Gap



from a tax compliance perspective because, unlike employees, independent contractors usually
have no taxes withheld from their earnings.

The absence of a requirement to withhold taxes from independent contractors
poses a significant challenge to tax administration
By law, employers are required to systematically withhold income, Social Security, and
Medicare taxes from the compensation paid to their employees and remit the withheld taxes to
the IRS. Employers are also responsible for paying unemployment taxes and a share of each
employee’s Social Security and Medicare taxes. They may also pay for health care coverage and
other fringe benefits. The systematic withholding and reporting of taxes by employers, assuming
employees have given them correct identification numbers, is a reason often cited for the near-
perfect compliance among wage earners.
In contrast to wage earners, for whom taxes are
collected primarily through withholding requirements,            Independent contractors are
the same taxes owed by independent contractors are           responsible for estimating, setting
collected mainly through a self-assessment process.           aside, reporting, and paying the
Businesses have no requirement to withhold taxes               taxes they determine are owed.
from the compensation paid to independent
contractors, nor do they have any reporting obligations
to the IRS if the payments to an individual total less than $600 in any given year. Instead,
independent contractors bear full responsibility for estimating, setting aside, reporting, and
paying the income, Social Security, and Medicare taxes they determine are due from their
earnings.
While IRS statistics indicate the vast majority of independent contractors comply with the tax
laws, the absence of withholding and full information reporting creates opportunities to
underreport income on tax returns and avoid detection by the IRS. Some individuals are clearly
taking advantage of these opportunities, given the significant amount of evidence presented over
the years showing independent contractors tend to have significantly lower levels of compliance
than employees.
An IRS study, for example, showed as early as 1974 that independent contractors voluntarily
reported only 74 percent of their income. The IRS subsequently estimated that the 1992 tax gap
caused by independent contractors who did not report their income exceeded $30 billion.
Additionally, the GAO, Joint Committee on Taxation, and Office of Tax Policy in the
Department of the Treasury all acknowledged the revenue loss associated with the lower
compliance rates of independent contractors.




                                                                                             Page 7
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap



The IRS may never significantly reduce the number of miscellaneous income and
wage statements with mismatched names and identification numbers without
legislative changes
Our reports and those of the GAO have long called for legislative changes to address
fundamental and systemic problems associated with inaccurate identification numbers on
miscellaneous income and wage statements. We are encouraged that the President’s Fiscal
Year 2008 budget recommends legislation that requires businesses to verify the accuracy of
identification numbers for the independent contractors they hire and to withhold taxes from those
whose identification numbers do not match IRS records. These proposals reiterate
recommendations that we, the IRS, and the GAO have made to address the root causes that
largely account for the low compliance levels among independent contractors and the number of
miscellaneous income statements submitted with mismatched names and identification numbers.
Figure 2 highlights the various components of the proposal and shows that the Department of the
Treasury Office of Tax Policy estimates the change could generate $749 million in tax revenues
over a 9-year period.

   Figure 2: Revenue Proposal to Improve Independent Contractor Compliance
                  Key Components                                         Potential Benefits
 Businesses required to verify the accuracy of the         Enhances compliance by increasing the accuracy of
 independent contractor’s identification number.           information reporting.
 Businesses required to withhold taxes from an             Assures some taxes are collected from those who
 independent contactor who submits an inaccurate           may otherwise escape paying any taxes.
 identification number.
 Independent contractor could opt to have businesses       Reduces the burden of having to estimate and set
 withhold taxes.                                           aside tax payments.
 Proposal effective for payments totaling more than $600 Will generate about $749 million in tax revenue over
 made in the course of business after January 1, 2008.     9 years, according to the Office of Tax Policy.
Source: Our analysis of a revenue proposal in the President’s Fiscal Year 2008 budget.

While the proposal has the potential to significantly improve compliance and deliver other, more
modest benefits, such as reducing the burden of having to estimate and set aside tax payments, a
similar legislative solution is needed to address inaccurate identification numbers on wage
statements. Moreover, because there is no guarantee proposed legislation will be enacted into
law, the IRS needs to thoroughly consider other options to offset this risk, including additional
research to resolve more incorrect identification numbers.




                                                                                                        Page 8
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap



Privacy provisions in the tax laws need to be addressed before employers can
verify the accuracy of identification numbers for employees they hire 8
Without a legislative change to allow employers to take advantage of the investment that has
been made in the IRS Internet-based identification number matching system, the volume of
inaccurate identification numbers on wage statements may never be significantly reduced.
Introduced in 2003, the system can instantaneously verify up to 25 identification number and
name combinations in IRS records; larger requests can be sent to the IRS electronically and a
response can be received within 1 business day. Although employer groups, such as the National
Association for Self-Employed,9 would likely welcome the opportunity to use the IRS
Internet-based identification number matching system in verifying the accuracy of the names and
identification numbers of the workers they hire, a significant barrier needs to be addressed.
Specifically, privacy provisions in the tax laws that allow the IRS to verify independent
contractors’ identification numbers for businesses do not extend to wage earners.
Although, in a previous session of Congress, legislation was passed that would have removed
this barrier, the Congressional term expired before the legislation became law.10 Accordingly,
we believe followup legislation needs to be submitted to Congress for consideration that would
allow the IRS to verify employee identification numbers for employers. To take full advantage
of the investment made in the IRS identification number matching system, the proposed
legislation needs to additionally require that employers use the system in verifying the accuracy
of the identification numbers for the employees they hire and to withhold taxes at the maximum
rate on those whose identification numbers do not match IRS records.
While the legislative changes discussed offer the greatest potential for resolving the fundamental
and systemic problems associated with inaccurate identification numbers, considerable time will
likely lapse before they become law and the processes are in place to administer them. Further,
there is no guarantee the proposed changes will be enacted into law. One option the IRS could
pursue, without legislative changes, to somewhat offset these risks involves using manual
research techniques to resolve more miscellaneous income and wage statements with
mismatched names and identification numbers.




8
  Internal Revenue Code § 6103 (2007) protects the confidentiality of wage earner identification numbers and does
not permit disclosing to employers the actual numbers or whether the numbers match IRS records. However, under
Internal Revenue Code § 3406 (2007), such disclosure is generally allowed to businesses and other third parties for
payments subject to backup withholding, including payments to independent contractors.
9
  In written Congressional testimony, this Association expressed support for the proposal that would require
employers to verify the accuracy of identification numbers of independent contractors they hire, provided the system
is user friendly, provides quick responses, and is accessible online or by telephone.
10
   The legislation was introduced in April 2003 to the 108th United States Congress, which was in session during
2003 and 2004.
                                                                                                            Page 9
                 Mismatched Names and Identification Numbers on Information
                         Documents Could Undermine Strategies for
                                  Reducing the Tax Gap



deciding whether to use the mismatch file, it is important to consider that nearly all (97 percent)
of the miscellaneous income statements in the file involve earnings of $60,000 or less, while the
remaining 3 percent (those with more than $60,000) account for the vast majority (about
83 percent) of the earnings.

Recommendations
The Director, Examination, Small Business/Self-Employed Division, should:
Recommendation 1: Forward the observations in this report to the Department of the
Treasury to use in assessing the need for tax law changes that would allow the IRS to verify
employee identification numbers for employers and require employers to (1) use the IRS
identification number matching system to verify the accuracy of identification numbers for the
employees they hire and (2), for tax administration purposes, withhold taxes at the maximum
rates on those whose identification numbers do not match IRS records.
       Management’s Response: IRS management agreed with this recommendation and
       will forward a copy of the report to the Department of the Treasury Office of Tax Policy.
Recommendation 2: Use the IRS automated data systems to research, resolve, and
investigate high-dollar miscellaneous income and wage statements with mismatched names and
identification numbers.
       Management’s Response: The IRS did not agree to take action on this
       recommendation. In deciding to not take action, the IRS noted the additional cost of
       manually perfecting mismatched documents may exceed the monetary benefits.
       Office of Audit Comment: The IRS decision not to act on our recommendation based
       on a cost/benefit concern is puzzling because no exceptions were taken to how we
       determined the benefit of $233.36 million in additional revenue, which we estimate
       exceeds by a large margin the costs the IRS would incur. In Fiscal Year 2007, for
       example, the IRS paid its most experienced examiners working in the highest cost of
       living area in the country about $62 an hour in salary and benefits. IRS records show the
       examiners produced about $354 for each hour they spent examining a tax return (a net
       return of about $292 an hour). In comparison, we estimate that, if instead of examining
       tax returns the examiners had perfected and investigated the 103,471 mismatched
       documents reflected in Figure 3 of the report, they would have generated an average of
       about $2,255 an hour (a net return of about $2,193 an hour).




                                                                                            Page 12
                      Mismatched Names and Identification Numbers on Information
                              Documents Could Undermine Strategies for
                                       Reducing the Tax Gap



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the progress of efforts to minimize the
volume of mismatched names and identification numbers reported on the Miscellaneous Income
(Form 1099-MISC) and the Wage and Tax Statement (Form W-2) (hereafter referred to as
miscellaneous income and wage statements, respectively). During the review, we relied on
databases provided to us by the IRS. We did not conduct audit tests to determine the accuracy
and reliability of the information in any of the databases. However, we did assess the
reasonableness of the data as described below and concluded the data were reliable and adequate
to conduct our work. Also, we did not evaluate the adequacy of IRS internal controls over
miscellaneous income and wage statements because that was outside the scope of the review. To
accomplish our objective, we:
I.         Reviewed a significant amount of material to gain an understanding of and the need for
           reducing the number of miscellaneous income and wage statements with mismatched
           names and identification numbers. The sources included the President’s Fiscal
           Year 2008 budget submission to Congress, the Department of the Treasury strategy for
           reducing the tax gap,1 and numerous reports issued by the IRS, the GAO, and us on the
           subject.
II.        Reviewed IRS guidelines and interviewed its personnel to learn how miscellaneous
           income and wage statements are processed, validated, and perfected.
III.       Analyzed extracts from the IRS records of miscellaneous income and wage statements
           submitted with mismatched names and identification numbers for TYs 2001 through
           2004 to identify filing trends and characteristics.
IV.        Tested the reasonableness of the information from our extracts of IRS records by
           comparing it to written testimony submitted to Congress by the IRS.
V.         Reviewed the Internal Revenue Code2 to identify the tax laws applicable to information
           reporting.
VI.        Analyzed a statistically valid attribute sample of 246 of the 6,339 wage statements
           contained in the IRS’ records of mismatched names and identification numbers that were




1
    The difference between what is paid in taxes and what should be paid according to the tax laws.
2
    26 U.S.C. Section 3406 (2006).
                                                                                                          Page 13
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap



        submitted in TY 2004 and reported more than $60,000 in earnings,3 to determine if the
        mismatches could be resolved and used to identify unreported income and/or nonfiling
        situations. The sample was based on a 95 percent confidence level, a nonfiling
        occurrence rate of 9.35 percent, and a precision rate of +3.64 percent. The nonfiling
        occurrence rate was determined by dividing the 23 nonfilers identified in our sample by
        the 246 wage statements.
VII.    Analyzed a statistically valid attribute sample of 374 of the 97,132 miscellaneous income
        statements contained in the IRS’ records of mismatched names and identification
        numbers that were submitted in TY 2004 and reported more than $60,000 in earnings, to
        determine if the mismatches could be resolved and used to identify unreported income
        and/or nonfiling situations. The sample was based on a 95 percent confidence level, a
        nonfiling occurrence rate of 5.61 percent, and a precision rate of +2.3 percent. The
        nonfiling occurrence rate was determined by dividing the 21 nonfilers identified in our
        sample by the 374 miscellaneous income statements.
VIII.   Used variable sampling techniques based on the nonfiling occurrence rates to estimate the
        dollar amount of earnings for the population of mismatched miscellaneous income and
        wage statements that may have gone unreported because the taxpayers did not voluntarily
        file their income tax returns.
IX.     Confirmed the accuracy and validity of our projections with statisticians from the IRS
        Statistics of Income Division.




3
  We selected statements reporting more than $60,000 in earnings because it would enable us to focus our efforts on
those with the highest amount of unreported income.
                                                                                                          Page 14
                Mismatched Names and Identification Numbers on Information
                        Documents Could Undermine Strategies for
                                 Reducing the Tax Gap



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Frank Dunleavy, Audit Manager
William Tran, Lead Auditor
Earl Charles Burney, Senior Auditor
Timothy Greiner, Senior Auditor
Stanley Pinkston, Senior Auditor
James Adkinson, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                        Page 15
               Mismatched Names and Identification Numbers on Information
                       Documents Could Undermine Strategies for
                                Reducing the Tax Gap



                                                                          Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 16
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $233.36 million per year; $1.17 billion over 5 years. This
    represents the additional revenue associated with taxes, interest, and penalties on assessments
    from researching, resolving, and investigating the Miscellaneous Income (Form 1099-MISC)
    and the Wage and Tax Statements (Form W-2) (hereafter referred to as miscellaneous
    income and wage statements, respectively) with mismatched names and identification
    numbers reporting more than $60,000 in earnings.1 The value of the outcome measure does
    not include amounts (costs) that could partially offset this benefit due to reallocating some
    resources from other IRS investigations (see page 6).

Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with researching, resolving, and
investigating miscellaneous income and wage statements with mismatched names and
identification numbers, we:
    1. Analyzed statistically valid samples of 374 miscellaneous income statements and
       246 wage statements with mismatched names and identification numbers reporting more
       than $60,000 in earnings, to determine the number of documents that could be manually
       perfected and identified without income tax returns. Our samples were selected from
       populations of 6,339 wage statements and 97,132 miscellaneous income statements
       submitted for TY 2004.
    2. Used the results of our samples to project that mismatched documents for
       5,449 miscellaneous income statements and 593 wage statements could not be
       associated with income tax returns filed reporting the income.
    3. Shared our methodology for projecting our attribute and variable samples into the
       populations of mismatched miscellaneous income and wage statements with IRS


1
  We selected statements reporting more than $60,000 in earnings because it would enable us to focus our efforts on
those with the highest amount of unreported income.
                                                                                                          Page 17
                   Mismatched Names and Identification Numbers on Information
                           Documents Could Undermine Strategies for
                                    Reducing the Tax Gap



        Statistics of Income Division staff, who confirmed the accuracy and validity of the
        projections.
    4. Followed the IRS Substitute for Return program procedures2 for preparing proposed
       assessments. Our calculations of taxes, interest, and penalties were based on these
       procedures, along with our assumptions that (1) there were no expenses associated with
       the miscellaneous income statements, (2) the individual’s filing status was Single, and
       (3) there were no other sources of income for the taxpayer.
    5. Applied and calculated the applicable Federal income tax rates to the
       5,449 miscellaneous income statements and the 593 wage statements. In addition, we
       applied the appropriate self-employment tax rates and adjustments to the earnings
       reported on the miscellaneous income statements.
    6. Used the IRS’ internal computer programs to apply the penalty for failure to file, the
       penalty for failure to pay, and interest from April 15, 2005 (due date of the return), to
       December 31, 2006.




2
 The IRS prepares a substitute for return when a taxpayer appears to have a filing requirement but does not comply
by voluntarily filing a tax return.
                                                                                                         Page 18
    Mismatched Names and Identification Numbers on Information
            Documents Could Undermine Strategies for
                     Reducing the Tax Gap



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 19
Mismatched Names and Identification Numbers on Information
        Documents Could Undermine Strategies for
                 Reducing the Tax Gap




                                                     Page 20
Mismatched Names and Identification Numbers on Information
        Documents Could Undermine Strategies for
                 Reducing the Tax Gap




                                                     Page 21
Mismatched Names and Identification Numbers on Information
        Documents Could Undermine Strategies for
                 Reducing the Tax Gap




                                                     Page 22
